 FEDERAL INFORMATION SECURITY
    MANAGEMENT ACT REPORT


Fiscal Year 2009 Evaluation of the Social Security
      Administration's Compliance with the
  Federal Information Security Management Act




            November 2009      A-14-09-19047


                Patrick P. O’Carroll, Jr.
                   Inspector General
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                SOCIAL SECURITY

MEMORANDUM

Date:      November 17, 2009                                                            Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Fiscal Year 2009 Evaluation of the Social Security Administration’s Compliance with the
           Federal Information Security Management Act (A-14-09-19047)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration’s (SSA)
           overall security program and practices complied with the requirements of the Federal
           Information Security Management Act of 2002 (FISMA) for Fiscal Year (FY) 2009. 1

           BACKGROUND
           FISMA provides the framework for securing the Government’s information and
           information systems. All agencies must implement the requirements of FISMA and
           report annually to the Office of Management and Budget (OMB) and Congress on the
           adequacy and effectiveness of their security programs. FISMA requires that each
           agency develop, document, and implement an agency-wide information security
           program. 2

           OMB uses information reported pursuant to FISMA to evaluate agency-specific and
           Government-wide security performance, develop the annual security report to
           Congress, and assist in improving and maintaining adequate agency security
           performance. OMB issued Memorandum M-09-29, FY 2009 Reporting Instructions for
           the Federal Information Security Management Act and Agency Privacy Management, on
           August 20, 2009. This year, OMB requires that agencies use an automated tool,
           CyberScope, to submit the annual FISMA report. See Appendix C for additional
           background.

           SCOPE AND METHODOLOGY

           FISMA directs each agency’s Office of Inspector General (OIG) or an independent
           external auditor, as determined by the Inspector General of the agency, to perform an
           annual, independent evaluation of the effectiveness of the agency’s information security

           1
               Pub. L. No. 107-347, Title III, Section 301.
           2
               Pub. L. No. 107-347, Title III, Section 301 § 3544(b), 44 U.S.C. § 3544(b).
Page 2 - The Commissioner

program and practices. 3 SSA’s OIG contracted with PricewaterhouseCoopers LLP
(PwC) to assist in the audit of SSA’s FY 2009 financial statements. 4 Because of the
extensive internal control system review that is completed as part of that work, the OIG
FISMA requirements were incorporated into PwC’s financial statement information
technology (IT) related work. This evaluation included reviews of SSA’s mission-critical
sensitive systems as described in the Government Accountability Office’s Federal
Information System Controls Audit Manual (FISCAM). PwC performed an “agreed-upon
procedures” engagement using FISMA, OMB, National Institute of Standards and
Technology (NIST) guidance, FISCAM, and other relevant security laws and regulations
as a framework to complete the required OIG review of SSA’s information security
program, practices, and sensitive systems. See Appendix D for more details on our
Scope and Methodology.

SUMMARY OF RESULTS
Based on the results of OIG and PwC’s work, we determined that SSA generally
complied with FISMA requirements for FY 2009; however, there are areas that need
improvement. SSA continues to work toward maintaining a secure environment for its
information and systems. For example, SSA continues to have sound processes in a
number of areas including certification and accreditation (C&A), configuration
management, privacy, and system inventory.

Although the Agency continues to protect its information and systems, our FY 2009
financial statement audit identified a significant deficiency in the Agency’s controls over
access to its information. SSA did not continually assess individuals’ access to the
Agency’s mainframe information. It should be noted that a financial statement
significant deficiency in internal controls does not necessarily rise to the level of a
significant deficiency as defined under FISMA. 5 The FY 2009 financial statement audit
significant deficiency does not rise to the level of a significant deficiency defined under
FISMA because of other compensating controls the Agency has in place, such as


3
    Pub. L. No. 107-347, Title III, Section 301, 44 U.S.C. § 3545(b)(1).
4
 OIG Contract Number GS-23F-0165N, March 16, 2001. FY 2009 option was exercised in December
2008.
5
  Government Accountability Office, Government Auditing Standards, section 5.11: A significant
deficiency with regard to financial audits is defined as a deficiency in internal control, or combination of
deficiencies, that adversely affects the entity’s ability to initiate, authorize, record, process, or report
financial data reliably in accordance with Generally Accepted Accounting Principles such that there is
more than a remote likelihood that a misstatement of the entity’s financial statements that is more than
inconsequential will not be prevented or detected. OMB FY 2009 Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management, August 20, 2009, page 9 states
a significant deficiency as a weakness in an agency’s overall information systems security program or
management control structure, or within one or more information systems that significantly restricts the
capability of the agency to carry out its mission or compromises the security of its information, information
systems, personnel, or other resources, operations, or assets. In this context, the risk is great enough that
the agency head and outside agencies must be notified and immediate or near immediate corrective
action must be taken.
Page 3 - The Commissioner

intrusion detection systems, guards, closed circuit televisions, automated systems
checks, configuration management, and firewalls.

We also noted several areas that would enhance SSA’s security over its systems and
sensitive information. SSA should ensure:

      •   implementation of OIG’s computer security program audit recommendations;
      •   implementation of effective system access controls;
      •   effective strategic planning that addresses future processing needs;
      •   protection of personally identifiable information (PII);
      •   full implementation of its vulnerability remediation policy;
      •   employees and contractors receive security awareness and specialized security
          training;
      •   proper incident handling and notification; and
      •   continued improvements in its C&A security assessments.

IMPLEMENTATION OF OIG COMPUTER SECURITY PROGRAM
RECOMMENDATIONS

According to FISMA, each agency is required to implement an agency-wide information
security program “. . . to provide information security for the information and information
systems that support the operations and assets of the agency.” 6 The Chief Information
Officer (CIO) is responsible for ensuring agency compliance with FISMA and
designating a senior agency information security officer to head an office with the
mission and resources to assist the CIO in ensuring agency compliance with FISMA. 7
In September 2009, we completed a follow-up audit of our 2001 review of SSA’s
computer security program. 8 We found that SSA continued to have a decentralized/
fragmented information security management structure. We also found that the Office
of the CIO did not have sufficient delegated authority and resources to carry out its
responsibilities for SSA’s information security program. To help ensure an effective
security program, SSA needs to have a centralized security structure with sufficient
delegated authority and resources. Further, SSA needs to have all staff responsible for
developing an agency-wide security policy report to the CIO. Had SSA implemented
the recommendations from our June 2001 report, 9 some of the findings discussed in this
report may not have occurred.




6
    Pub. L. No. 107-347, Title III, Section 301(b)(1) § 3544(b), 44 U.S.C. § 3544(b).
7
    Pub. L. No. 107-347, Title III, Section 301(b)(1) § 3544(a)(3), 44 U.S.C. § 3544(a)(3).
8
 Follow-up: The Social Security Administration’s Computer Security Program Compliance (A-14-09-
19048) September 24, 2009.
9
 Management Advisory Report - Compliance of the Social Security Administration’s Computer Security
Program with Applicable Laws and Regulations (A-13-98-12044), June 14, 2001.
Page 4 - The Commissioner

IMPLEMENTATION OF EFFECTIVE SYSTEM ACCESS CONTROLS

OMB Circular A-123 Significant Deficiency

Controlling and limiting access to the Agency’s information systems and resources is
the first line of defense in ensuring the confidentiality, integrity, and availability of the
Agency’s information resources. 10 Lack of adequate access controls compromises the
completeness, accuracy, and validity of the information in the systems.

Our audit of SSA’s FY 1997 financial statements identified access controls as a
reportable condition. 11 Since 1997, SSA has worked to establish sufficient access
controls, as evidenced by the use of TOP SECRET software and the initiation of the
Standardized Security Profile Project (SSPP). 12 Further, the Agency made significant
progress identifying and establishing a baseline for security access to its financially
significant mainframe applications, security administration tools, and operating systems.
As a result, in FY 2005, the access control issue was removed as a reportable
condition.

However, our FY 2009 financial statement audit identified a significant deficiency13 in
the Agency’s control of access to its sensitive information. SSA needs to periodically
recertify individuals’ security accesses to Agency mainframe computers. Moreover, a
policy had not been established and consistently implemented agency-wide to
periodically reassess the content of security access to ensure that employees and
contractors are given least-privilege accesses for their job responsibilities. Further, SSA
was unable to consistently provide evidence that Agency management reviewed
security accesses or "profiles" 14 to determine whether system data, transactions, and
resources for financially significant applications, systems, and related tools were in line
with the concept of least privilege.

Local Profiles

SSA used local profiles to allow quick changes to access rights. These changes can
only occur for access that the component security officers can administer. Local profiles
are not included in the TOP SECRET tracking (TSTRAC) process. The TSTRAC
process is a sequence of SSA “checks and balances” for requesting, obtaining, and
changing access to protect SSA data, applications, and resources. During the financial
10
     Information Systems Security Handbook, Section 2.1.
11
  A reportable condition is a control deficiency or combination of control deficiencies that in
management’s judgment represent significant deficiencies in the design or operation of internal control
that could adversely affect the organization's ability to meet its internal control objectives.
12
     SSPP is a project to ensure programmers only have the least system privilege.
13
     See Footnote 5.
14
  A profile is one of TOP SECRET’s primary access control mechanisms. Each profile contains a unique
mix of facilities and transactions that determines what access to systems resources that specific position
needs.
Page 5 - The Commissioner

statement audit, approximately 3,650 local profiles were identified. We identified 101 of
the 3,650 local profiles as having access to financially significant applications. Our tests
found that the Agency had not been properly managing and monitoring these 101 local
profiles. Our testing on non-financially significant local profiles was limited. We plan to
expand our review in FY 2010 to determine whether these profiles have any significant
impact on SSA’s non-financial systems.

Other Access Control Weaknesses

SSA should continue to work to strengthen access controls in other areas. Our audit
work in FYs 2007 through 2009 identified a need for SSA to strengthen employment
suitability checks for SSA contractor personnel. 15 For example, we found that a number
of contractor staff did not receive background checks. Therefore, these individuals
should not have been permitted to work on-site at an SSA facility or have access to
Agency program or sensitive information. Additionally, we determined that certain
programmers had excessive access to production data for specific SSA systems. SSA
should ensure that individuals only have access to the systems that are necessary to
perform their jobs. As a result of these weaknesses, SSA’s sensitive data could have
been compromised.

A strong security plan is required as SSA increases dependence on the Internet and
Web-based applications to serve the American public. Additionally, SSA needs to
improve its review and assignment of access to sensitive information systems and the
data contained therein. Further, SSA management should implement a policy that
requires annual reviews of the assignment of profiles and the content of these profiles.
The scope of the policy should include all profiles, and the process should be consistent
and auditable.

EFFECTIVE STRATEGIC PLANNING THAT ADDRESSES FUTURE PROCESSING
NEEDS

Effective strategic planning is critical to SSA’s ability to address future processing needs
and protect its sensitive data. Several OIG reports have identified a need for SSA to
improve its IT long-term strategic planning. 16 SSA’s IT strategic planning documents
are task-oriented in nature and need to be more strategic. If SSA had a long-term and



15
  The Social Security Administration's Information Technology Maintenance and Local Area Network
Relocation Contract (A-14-07-17022), May 21, 2007; The Social Security Administration’s Enterprise-
Wide Network Infrastructure Contract (A-14-08-18014), September 2, 2008; and The Social Security
Administration's Oversight of MDRC Contract No. SS00-06-60075 (A-15-08-18010), December 22, 2008.
16
  The Social Security Administration’s Information Resources Management Strategic Plan
(A-14-07-27133), September 28, 2007; Quick Response Evaluation: The Social Security Administration’s
Ability to Address Future Processing Requirements (A-44-09-19098), March 16, 2009; Quick Response
Evaluation: The Social Security Administration’s Disaster Recovery Process (A-14-09-29139),
June 5, 2009; Congressional Response Report: The Social Security Administration’s Information
Technology Strategic Planning (A-44-09-29120), June 29, 2009; and Processing Capacity of the Social
Security Administration’s Durham Support Center (A-14-09-19100), September 30, 2009.
Page 6 - The Commissioner

comprehensive IT Strategic Planning process in place, the significant infrastructure and
electrical capacity issues currently affecting the National Computer Center (NCC) may
have been avoided. Further, the current NCC replacement effort would not be an
exercise in crisis management. Because of the significant infrastructure and electrical
capacity issues, the Agency’s ability to deliver services to the American public is at risk.
The American Recovery and Reinvestment Act of 2009 provided SSA $500 million to
replace the NCC. 17 Proper long-term and comprehensive strategic planning will help
SSA ensure the NCC replacement meets its near- and long-term needs.

In addition to the NCC replacement, SSA needs to address its ability to recover critical
data processing operations in the event of disaster. The Agency’s goal is to restore
critical functions within 24 hours of a disaster. Currently, it will take SSA approximately
10 days to reach 34 percent of its production capacity. SSA’s current disaster recovery
plan is heavily dependent on the availability of a contracted facility that is available on a
first-come, first-served basis. SSA has constructed a second data center, known as the
Durham Support Center (DSC). The current plan shows the DSC to be fully functional 18
in 2013; however, we were advised that steps have been taken to ensure the DSC will
have the mainframe capacity to perform all critical NCC workloads 19 by 2010. The DSC
would prove to be an important option should the NCC be affected by a catastrophic
event that affects the Northeast region. Our FY 2009 reviews recommended that SSA
accelerate the use of the DSC as a fully functioning data center—with particular
emphasis on using the DSC as the disaster recovery site for the NCC. 20




17
     Pub. L. No. 111-5, Division A, Title VIII, H.R. 1-71.
18
  A data center is fully functional when it will process a portion of SSA's critical and non-critical
workloads. Each data center will back up the data assets of the other. The centers will be designed so
that, in the event of a disaster, the critical workloads of one will be assumed by the other. Non-critical
workloads will be deferred until the impacted center is restored to full operations or the capacity of the
unaffected center can be expanded.
19
  SSA’s critical workloads are enumeration and claims administration for benefits and post-entitlements
under Titles II and XVI.
20
  Quick Response Evaluation: The Social Security Administration's Disaster Recovery Process
(A-14-09-29139), February 17, 2009 and Processing Capacity of the Social Security Administration’s
Durham Support Center (A-14-09-19100), September 30, 2009.
Page 7 - The Commissioner

PROTECTION OF PERSONALLY IDENTIFIABLE INFORMATION

OMB has issued guidance 21 on how Federal agencies should safeguard PII. 22 For
example, the current FISMA reporting guidance 23 requires that SSA include the
following items as an appendix to its annual FISMA report:

        •    breach notification policy, if it has changed significantly since last year’s
             report;
        •    progress update on eliminating unnecessary use of Social Security numbers
             (SSN); and
        •    progress update on review and reduction of holdings of PII.

SSA has taken various steps to safeguard PII. It created a PII Portal Website that
defined SSA managers’ and employees’ responsibilities to ensure the confidentiality of
the information they collect and hold. SSA also established a PII Executive Steering
Committee to provide oversight as well as make recommendations on Agency PII policy
to the Commissioner as well as other groups to oversee the public Internet site and
internal Intranet sites. For example, the Agency established the Web Steering
Committee to facilitate coordination between responsible components on the
development, management, and maintenance of its Internet site. In addition, SSA
established the Internet and Intranet Application Standards Workgroups to oversee the
Internet and Intranet sites.

SSA can still improve its efforts to protect PII. For example, we identified instances of
PII on the Agency’s Intranet. 24 SSA has attempted to mitigate these PII breaches by
removing the PII from the public domain. However, our search of SSA’s Intranet sites
detected 179 instances of PII being displayed. We found most of this PII on regional
Intranet sites maintained by SSA’s Office of Disability Adjudication and Review. In
addition, we found 11 other instances of exposed PII on other SSA Intranet sites
containing Agency training manuals. After we notified SSA officials about the exposed
PII, it was immediately removed from the Intranet sites.

We reported that the Agency lacked a designated component to monitor PII issues
related to SSA’s Internet and Intranet sites. Moreover, SSA had not developed clear

21
   OMB Memorandum M-09-29, supra at cover pages; OMB Memorandums M-08-09, New FISMA
Privacy Reporting Requirements for FY 2008, January 18 2008; M-07-16, Safeguarding Against and
Responding to the Breach of Personally Identifiable Information, May 22, 2007; and M-06-19, Reporting
Incidents Involving Personally Identifiable Information and Incorporating the Cost for Security in Agency
Information Technology Investments, July 12, 2006.
22
   PII refers to information that can be used to distinguish or trace an individual's identity, such as his/her
name, Social Security number, biometric records etc., alone, or when combined with other personal or
identifying information that is linked or linkable to a specific individual such as date and place of birth, or
mother's maiden name.
23
   OMB Memorandum M-09-29, supra at cover pages.
24
  Protecting Personally Identifiable Information on the Social Security Administration’s Intranet Sites
(A-12-09-29118), August 19, 2009.
Page 8 - The Commissioner

and relevant content standards for safeguarding PII on its Websites. SSA’s lack of
controls may have contributed to PII being displayed on the Agency’s Intranet sites.
SSA should ensure that controls to protect PII are fully developed and implemented in
accordance with OMB guidance.

FULL IMPLEMENTATION OF SSA’S VULNERABILITY REMEDIATION POLICY

FISMA requires that agencies implement an information security program that includes
a process for planning, implementing, evaluating, and documenting remedial action to
address any deficiencies in the Agency’s information security policies, procedures, and
practices. 25 OMB requires that agencies have a Plan of Action and Milestones
(POA&M) process to manage their remediation of security vulnerabilities. 26 In FY 2009,
SSA implemented a new automated system called Cyber Security Assessment and
Management, to manage its remediation process. SSA has an adequate remediation
policy, but the policy has not been fully implemented. For example, some of the
deficiencies in the Agency’s information security policies, procedures, and practices
were not tracked by Cyber Security Assessment and Management, and some Agency
component quarterly remediation status reports were not provided to the Office of the
CIO. We also found some deficiencies were not remediated timely. SSA should
strengthen its POA&M process to ensure all deficiencies are tracked and appropriately
addressed timely. Further, Agency components should provide timely remediation
status reports to the Office of the CIO as required by Agency policy. 27

ENSURE EMPLOYEES AND CONTRACTORS RECEIVE SECURITY AWARENESS
AND SPECIALIZED SECURITY TRAINING

FISMA and OMB require that all Agency personnel and contractors receive appropriate
annual security awareness and specialized security training. 28 The Agency states that
its approach to providing information security training to all SSA employees and system
users follows the guidelines in OMB Circular A-130, Appendix III, 29 which indicates that

25
     Pub. L. No. 107-347, Title III, Section 301(b) § 3544(b)(6), 44 U.S.C. § 3544(b)(6).
26
 OMB M-02-01, Guidance for Preparing and Submitting Security Plans of Action and Milestones,
October 17, 2001.
27
     Information Systems Security Handbook, Appendix U.
28
   OMB M-09-29, supra at page 17, states “…the agency is responsible for ensuring the contractor
personnel receive appropriate training (i.e., user awareness training and training on agency policy and
procedures).” Pub. L. No. 107-347, Title III, Section 301(b) § 3544(a)(4) requires each agency head to
ensure that the agency has trained personnel sufficient to assist the agency in complying with the
requirements of this subchapter and related policies, procedures, standards, and guidelines. OMB M-07-
16, Attachment 1 § A.2.d states “Agencies must initially train employees (including managers) on their
privacy and security responsibilities before permitting access to agency information and information
systems. Thereafter, agencies must provide at least annual refresher training to ensure employees
continue to understand their responsibilities... Additional or advanced training should also be provided
commensurate with increased responsibilities or change in duties.”
29
     Section A.3.a.2.b.
Page 9 - The Commissioner

all individuals must be appropriately trained to fulfill their security responsibilities before
they are granted access to agency systems. FISMA requires that each agency develop,
document, and implement an agency-wide information security program. 30 NIST
recommends agencies monitor the compliance and effectiveness of their security
awareness training programs. 31 An automated tracking system should be designed to
capture key information regarding program activity (for example, courses, dates,
audience, costs, and sources). The tracking system should capture these data at an
agency level, so they can be used to provide enterprise-wide analysis and reporting
regarding awareness, training, and education initiatives. 32

We found that SSA’s security awareness and training program had two deficiencies:

      1. SSA did not have an effective process to confirm that all users with log-in
         privileges completed annual security awareness training before accessing the
         Agency’s systems.
      2. SSA did not have an effective process to monitor compliance and effectiveness
         of the security awareness and specialized security training program.

SSA could not provide sufficient documentation to support that its employees and
contractors completed the required security awareness and specialized security training
before accessing the Agency’s systems. Moreover, SSA stated that all employees and
contractor personnel received appropriate security awareness and security training.
However, Agency staff could only provide evidence that 16 of 45 users in our sample
received specialized training. We also found that some contractors were provided
access to SSA's systems before they received the security awareness statement. We
recommend SSA develop a system or process that adequately confirms all users with
log-in privileges complete annual security awareness training. Further, SSA needs to
establish an automated tracking system to create, review, and maintain security
awareness training records for all employees and contractors as evidence of
compliance with OMB A-130, FISMA, and NIST guidelines.

ENSURE PROPER INCIDENT HANDLING AND NOTIFICATION

SSA only reported 35 percent of the PII incidents to US-CERT within 1 hour. OMB
requires that agencies report all PII incidents within 1 hour of detection without
distinguishing between suspected and confirmed breaches.33 SSA management said it
strives to comply with the OMB timeframes; however, SSA conducts additional research

30
     Pub. L. No. 107-347, Title III, Section 301(b) § 3544(b), 44 U.S.C. § 3544(b).
31
  NIST Special Publication (SP) 800-50 Building an Information Technology Security Awareness and
Training Program, October 2003, page ES-1 states “Within agency IT security program policy, there must
exist clear requirements for the awareness and training program.”
32
     NIST 800-50, supra at section 6.1.
33
  OMB Memorandum M-06-19, Reporting Incidents Involving Personally Identifiable Information and
Incorporating the Cost for Security in Agency Information Technology Investments, July 12, 2006.
Page 10 - The Commissioner

to confirm the PII incident actually occurred. As a result, valuable time is lost before law
enforcement agencies and US-CERT are notified and can begin their investigations.
Further, since SSA waits to confirm a PII incident instead of immediately reporting a
suspected PII incident, the Agency is not in compliance with OMB policy. 34

In addition, FISMA requires that agencies notify and consult with law enforcement
agencies and their OIGs regarding security incidents, as appropriate. 35 Further, SSA’s
Administrative Instructions Manual System (AIMS) states that “. . . In the event of loss,
theft or damage to SSA controlled personal property; employees are to report promptly
to the appropriate custodial officer, through their immediate supervisor.” 36 In FY 2009,
SSA reported that 37 incidents were reported to law enforcement. The custodial
officers notify building security, Federal Protective Service, and/or local police of
suspected thefts.37 We sampled 5 of the 37 incidents reported to law enforcement and
found that OIG did not receive notice of the 5 incidents; however, the Agency’s Change,
Asset, and Problem Reporting System showed that all 5 incidents were forwarded to
law enforcement agencies. We did not contact other law enforcement agencies to verify
whether the five sampled incidents were reported.

SSA needs to comply with OMB Memorandum M-06-19 38 and ensure proper handling
of security incidents from the time of detection to final resolution.




34
     Id.
35
     Pub. L. No. 107-347, Title III, Section 301 (b)(1) § 3544 (b)(7)(C)(i), 44 U.S.C. § 3544 (b)(7)(C)(i).

36
 Administrative Instruction Manual System, Materiel Resources Manual, Chapter 4 Property
Management, Section 04.05.05 A.
37
     AIMS, supra at section 04.05.05 B.2.
38
     See Footnote 34.
Page 11 - The Commissioner

CONTINUED IMPROVEMENTS IN C&A SECURITY ASSESSMENTS

SSA conducted C&A reviews 39 for its 20 major systems in the past 3 years, as required
by FISMA. 40 To test SSA’s compliance with OMB 41 and NIST guidance, 42 we reviewed
4 of the 10 systems certified in FY 2009. We found SSA’s C&A process generally met
the requirements of NIST SP 800-37. 43

Although SSA generally met the Federal requirements for C&As, it needs to improve the
security assessment process to ensure security weaknesses are identified. As reported
in our FY 2008 FISMA assessment, SSA’s security assessments were largely based on
less effective assessment methods, such as examinations and interviews. 44 SSA made
some improvements during the FY 2009 C&A process by significantly increasing the
use of the test method 45 to assess the effectiveness of its security controls. However,
there were weaknesses relating to access control, contingency planning, and other
areas tested that should have been identified in the C&A review process. We
recommend SSA continue to improve its C&A process by increasing the usage of the
test assessment method.




39
   According to NIST SP 800-37 Guide for the Security Certification and Accreditation of Federal
Information Systems, May 2004, security certification is a comprehensive assessment of the
management, operational, and technical security controls in an information system, made in support of
security accreditation, to determine the extent to which the controls are implemented correctly, operating
as intended, and producing the desired outcome with respect to meeting the security requirements for the
system. Security accreditation is the official management decision given by a senior agency official to
authorize operation of an information system and to explicitly accept the risk to agency operations,
agency assets, or individuals based on the implementation of an agreed-upon set of security controls.
40
  OMB Memorandum M-09-29, page 11, states “C&A is required for all Federal information systems.”
This OMB guidance also indicates that section 3544(b)(3) of FISMA refers to “subordinate plans for
providing adequate information security for networks, facilities, and systems or groups of information
systems” and does not distinguish between major or other applications.

41
 OMB Memorandum M-09-29, supra, FY 2009 FISMA Reporting, Annual FISMA Reporting Inspector
General Questions, Question 5.
42
 NIST SP 800-37 Guide for the Security Certification and Accreditation of Federal Information Systems,
May 2004.
43
     Id.
44
   NIST SP 800-53A Guide for Assessing the Security Controls in Federal Information Systems,
July 2008, page 9, defined 3 security control assessment methods: examine, interview and test. The
examine method is the process of reviewing, inspecting, observing, studying, or analyzing one or more
assessment objects. The interview method is the process of conducting discussions with individuals or
groups of individuals within an organization to once again, facilitate assessor understanding, achieve
clarification, or obtain evidence. The test method is the process of exercising one or more assessment
objects (i.e., activities or mechanisms) under specified conditions to compare actual with expected
behavior.
45
     Id.
Page 12 - The Commissioner

CONCLUSIONS AND RECOMMENDATIONS
Our FY 2009 FISMA evaluation determined that SSA generally complied with FISMA;
however, some improvements are needed. SSA worked with us to identify ways to
comply with FISMA. The Agency continues to develop, implement, and operate security
controls to protect its sensitive data, assets and operations.

In our prior reports, we identified similar issues related to SSA’s (1) computer security
program, (2) access controls, (3) strategic planning, (4) protection of PII, (5) vulnerability
remediation process, (6) employee and contractor security awareness training,
(7) incident reporting, and (8) C&A process. We affirm our prior recommendations in
these areas and encourage the Agency to fully implement these recommendations.

SSA should continue to strengthen its overall security program and practices and
ensure future compliance with FISMA and other information security related laws and
regulations; therefore, we recommend SSA:

1. Ensure system access controls are fully implemented to meet least privilege criteria
   for all users of SSA’s systems. This includes regular monitoring of access to SSA’s
   systems.




                                                  Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Office of the Inspector General Response to Annual Federal Information
            Security Management Act of 2002 Reporting Inspector General
            Questions

APPENDIX C – Background and Current Security Status

APPENDIX D – Scope and Methodology

APPENDIX E – The Social Security Administration’s Certified and Accredited Systems

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                           Appendix A

Acronyms
AIMS          Administrative Instructions Manual System
C&A           Certification and Accreditation
CIO           Chief Information Officer
DSC           Durham Support Center
FIPS          Federal Information Processing Standard
FISCAM        Federal Information System Controls Audit Manual
FISMA         Federal Information Security Management Act of 2002
FY            Fiscal Year
IT            Information Technology
NCC           National Computer Center
NIST          National Institute of Standards and Technology
OIG           Office of Inspector General
OMB           Office of Management and Budget
PIA           Privacy Impact Assessment
PII           Personally Identifiable Information
Pub. L. No.   Public Law Number
POA&M         Plan of Action and Milestones
PwC           PricewaterhouseCoopers LLP
SP            Special Publication
SSA           Social Security Administration
SSN           Social Security Number
SSPP          Standardized Security Profile Project
TSTRAC        TOP SECRET Tracking
U.S.C.        United States Code
US-CERT       United States Computer Emergency Readiness Team
                                                                           Appendix B
Office of the Inspector General Response to Annual Federal Information
Security Management Act of 2002 Reporting Inspector General Questions



          Annual FISMA Reporting Inspector General Questions

Agency Name: Social Security Administration                         Submission date: 11/18/09

                                 Question 1: FISMA Systems Inventory

Identify the number of Agency and Contractor systems by component and FIPS 199 impact level
(low, moderate, high) reviewed.
                                          a.                     b.                    c.
                                    Agency Systems            Contractor        Total Number of
                                                              Systems         Systems (Agency and
                                                                              Contractor systems)
                    FIPS 199                                                                Total
Social Security      System       Total      Number     Total       Number     Total       Number
Administration    Impact Level   Number     Reviewed   Number      Reviewed   Number      Reviewed
                  High               0          0         0            0          0              0
                  Moderate          10         10         0            0         10             10
                  Low               10         10         0            0         10             10
                  Not
                  Categorized        0          0         0            0          0              0
 Agency Totals    Total             20         20         0            0         20             20




                                              B-1
Question 2: Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing

For the Total Number of Reviewed Systems Identified by Component/Bureau and FIPS System
Impact Level in the table for Question 1, identify the number and percentage of systems which
have: a current certification and accreditation, security controls tested and reviewed within the past
year, and a contingency plan tested in accordance with policy.
                                        a.                      b.                       c.
                                    Number of         Number of systems          Number of systems
                                 systems certified      for which security    which contingency plans
                                  and accredited       controls have been        have been tested in
                                                      tested and reviewed      accordance with policy
                                                         in the past year


                    FIPS 199
Social Security      System        Total Number           Total Number              Total Number
Administration    Impact Level
                  High                   0                     0                          0
                  Moderate               10                    10                         9
                  Low                    10                    10                        10
                  Not
                  Categorized            0                     0                          0
Agency Totals     Total                  20                    20                        19
The Security Management Access Control System was not included in the Agency’s annual
Disaster Recovery Exercise.




                                              B-2
  Question 3: Evaluation of Agency Oversight of Contractor Systems and Quality of Agency System
                                             Inventory
The Agency performs oversight and evaluation to ensure information systems used or operated by a
contractor of the Agency or other organization on behalf of the Agency meet the requirements of
FISMA, OMB policy and NIST guidelines, national security policy, and Agency policy.

Agencies are responsible for ensuring the security of information systems used by a contractor of
their Agency or other organization on behalf of their Agency; therefore, self reporting by contractors
does not meet the requirements of law. Self-reporting by another Federal Agency, for example, a
Federal service provider, may be sufficient. Agencies and service providers have a shared
responsibility for FISMA compliance.
  3a.    Does the Agency have policies for oversight of contractors?              Yes
         3a(1).     Is the policy implemented?                                    Yes
         Does the Agency have a materially correct inventory of major
  3b.    information systems (including national security systems) operated       Yes
         by or under the control of such Agency?
         Does the Agency maintain an inventory of interfaces between the
  3c.    Agency systems and all other systems, such as those not operated         Yes
         by or under the control of the Agency?
         Does the Agency require agreements for interfaces between
  3d.    systems it owns or operates and other systems not operated by or         Yes
         under the control of the Agency?
  3e.    The Agency inventory is maintained and updated at least annually.        Yes
         The IG generally agrees with the CIO on the number of Agency-
  3f.                                                                             Yes
         owned systems.
         The IG generally agrees with the CIO on the number of information
  3g.    systems used or operated by a contractor of the Agency or other          Yes
         organization on behalf of the Agency.




                                              B-3
     Question 4: Evaluation of Agency Plan of Action and Milestones (POA&M) Process

Assess whether the Agency has developed, implemented, and is managing an Agency-wide Plan of
Action and Milestones (POA&M) process:
                   Has the Agency developed and
                   documented an adequate policy that
                   establishes a POA&M process for             Yes
       4a.         reporting IT security deficiencies and
                   tracking the status of remediation efforts?
                              Has the Agency fully             No - The policy was implemented,
                   4a(1).
                              implemented the policy?          but weaknesses were identified.
                   Is the Agency currently managing and
       4b.                                                     Yes
                   operating a POA&M process?
                   Is the Agency's POA&M process an
                   Agency-wide process, incorporating all
                   known IT security weakness, including
                   IG/external audit findings associated with
       4c.                                                     Yes
                   information systems used or operated by
                   the Agency or by a contractor of the
                   Agency or other organization on behalf of
                   the Agency?
                   Does the POA&M process prioritize IT
                   security weakness to help ensure
       4d.         significant IT security weaknesses are      Yes
                   corrected in a timely manner and receive
                   appropriate resources?
                   When an IT security weakness is
                   identified, do program officials (including
       4e.         CIOs, if they own or operate a system)      Yes
                   develop, implement, and manage
                   POA&Ms for their system(s)?
                   For Systems Reviewed:
                   4f(1). Are deficiencies tracked and         No - We identified vulnerabilities
                   remediated in a timely manner?              that were not addressed timely.
                                                               No – SSA’s tracking system did not
                                                               provide sufficient information on
                   4f(2). Are the remediation plans effective  how vulnerabilities were corrected.
                   for correcting the security weakness?       We could not conclude whether the
       4f.                                                     Agency’s remediation plans for the
                                                               items we reviewed were effective.
                                                               No - We found some remediation
                                                               plans were marked as delayed or
                                                               not started as the plans
                   4f(3). Are the estimated dates for
                                                               approached its completion date.
                   remediation reasonable and adhered to?
                                                               We also found some remediation
                                                               plans did not contain completion
                                                               dates.



                                            B-4
                                                               No – The Agency could not provide
                     Do Program officials and contractors
                                                               evidence that some Program
                     report their progress on security
       4g.                                                     officials reported progress on
                     weakness remediation to the CIO on a
                                                               security weakness remediation on a
                     regular basis (at least quarterly)?
                                                               quarterly basis.
                     Does the Agency CIO centrally track,
                     maintain, and independently
       4h.                                                     Yes
                     review/validate POA&M activities on at
                     least a quarterly basis?

             Question 5: IG Assessment of the Certification and Accreditation Process
Provide a qualitative assessment of the Agency's Certification and Accreditation (C&A) process,
including adherence to existing policy, guidance, and standards. Agencies shall follow NIST Special
Publication 800-37, "Guide for the Security Certification and Accreditation of Federal Information
Systems" (May 2004) for C&A work initiated after May 2004. This includes use of the FIPS 199
(February 2004) "Standards for Security Categorization of Federal Information and Information
Systems," to determine a system impact level, as well as associated NIST documents used as
guidance for completing risk assessments and security plans. Provide explanatory detail in the area
provided.
             Has the Agency developed and
             documented an adequate policy for              Yes
    5a.
             establishing a C&A process that follows
             the NIST framework?
             Is the Agency currently managing and
    5b.      operating a C&A process in compliance         Yes
             with its policies?
                                                           5c(1). Appropriate risk
                                                                                     Yes
                                                           categories
                                                           5c(2). Adequate risk
                                                                                     Yes
                                                           assessments
                                                           5c(3). Selection of
                                                                                     Yes
             For Systems reviewed, does the C&A            appropriate controls
    5c.
             process adequately provide:                   5c(4). Adequate testing
                                                                                     Yes
                                                           of controls
                                                           5c(5). Regular
                                                           monitoring of system
                                                                                     Yes
                                                           risks and the adequacy
                                                           of controls
             For systems reviewed, is the Authorizing
             Official (AO) presented with complete and
             reliable C&A information to facilitate an
    5d.                                                    Yes
             informed system Authorization to Operate
             (ATO) decision based on risks and
             controls implemented?




                                             B-5
  Question 6: IG Assessment of Agency Privacy Program and Privacy Impact Assessment
                                             (PIA) Process
Provide a qualitative assessment of the Agency's process, as discussed in the SAOP section, for
protecting privacy-related information, including adherence to existing policy, guidance and
standards. Provide explanatory information in the area provided.
             Has the Agency developed and documented adequate
   6a.       policies that comply with OMB guidance in M-07-16, M-06-15, Yes
             and M-06-16 for safeguarding privacy-related information?
             Is the Agency currently managing and operating a privacy
   6b.       program with appropriate controls in compliance with its           Yes
             policies?
             Has the Agency developed and documented an adequate
   6c.                                                                          Yes
             policy for PIAs?
             Has the Agency fully implemented the policy and is the
   6d.       Agency currently managing and operating a process for              Yes
             performing adequate PIAs?
                               Question 7: Configuration Management
   7a.       Is there an Agency-wide security configuration policy?             Yes
             For each OS/platform/system for which your Agency has a configuration policy, please
             indicate the status of implementation for that policy.

             OS/Platform/         Implementation          Monitoring Compliance
               System                 Status              (if Policy fully implemented)

             Microsoft         Policy fully implemented
             Windows XP
             Professional      What tools and techniques is your Agency using for monitoring
                               compliance?

                                Tool/Technique/Technology         Category
  7a(1).                        System Center Configuration       Configuration Scanners
                                Manager
                                System Center Configuration       Patch Scanners
                                Manager
                                NESSUS; Harris STAT               Vulnerability Scanners
             HP HP-UX 11       Policy fully implemented

                               What tools and techniques is your Agency using for monitoring
                               compliance?

                                Tool/Technique/Technology         Category
                                CA PCM                            Patch Scanners
                                CA PCM                            Configuration Scanners
                                CA PCM                            Vulnerability Scanners




                                            B-6
IBM AIX 5        Policy fully implemented

                 What tools and techniques is your Agency using for monitoring
                 compliance?

                  Tool/Technique/Technology        Category
                  CA PCM                           Patch Scanners
                  CA PCM                           Configuration Scanners
                  CA PCM                           Vulnerability Scanners
IBM OS390        Policy fully implemented

                 What tools and techniques is your Agency using for monitoring
                 compliance?

                  Tool/Technique/Technology        Category
                  SSA Developed Scripts            Configuration Scanners
Microsoft        Policy fully implemented
Windows
Server 2003      What tools and techniques is your Agency using for monitoring
                 compliance?

                  Tool/Technique/Technology        Category
                  System Center Configuration      Patch Scanners
                  Manager
                  System Center Configuration      Configuration Scanners
                  Manager
                  NESSUS; Harris STAT              Vulnerability Scanners
Oracle           Policy fully implemented
Database 10g
                 What tools and techniques is your Agency using for monitoring
                 compliance?

                  Tool/Technique/Technology        Category
                  APP Detective                    Patch Scanners
                  APP Detective                    Configuration Scanners
                  APP Detective                    Vulnerability Scanners
Sun Solaris 9    Policy fully implemented

                 What tools and techniques is your Agency using for monitoring
                 compliance?

                  Tool/Technique/Technology        Category
                  CA PCM                           Patch Scanners
                  CA PCM                           Configuration Scanners
                  CA PCM                           Vulnerability Scanners
Sun Solaris 10   Policy fully implemented

                 What tools and techniques is your Agency using for monitoring
                 compliance?




                             B-7
                          Tool/Technique/Technology        Category
                          CA PCM                           Patch Scanners
                          CA PCM                           Configuration Scanners
                          CA PCM                           Vulnerability Scanners


       Microsoft         Policy fully implemented
       Windows
       Server 2000       What tools and techniques is your Agency using for monitoring
                         compliance?

                          Tool/Technique/Technology        Category
                          System Center Configuration      Patch Scanners
                          Manager
                          System Center Configuration      Configuration Scanners
                          Manager
                          NESSUS; Harris STAT              Vulnerability Scanners
       Microsoft         Policy fully implemented
       Windows Vista
                         What tools and techniques is your Agency using for monitoring
                         compliance?

                          Tool/Technique/Technology        Category
                          System Center Configuration      Patch Scanners
                          Manager
                          System Center Configuration      Configuration Scanners
                          Manager
                          NESSUS; Harris STAT              Vulnerability Scanners
       CISCO IOS 12      Policy fully implemented

                         What tools and techniques is your Agency using for monitoring
                         compliance?

                         Tool/Technique/Technology         Category
                         SSA Developed Scripts             Patch Scanners
                         SSA Developed Scripts             Configuration Scanners
       IBM DB2 8         Policy fully implemented

                         What tools and techniques is your Agency using for monitoring
                         compliance?

                         No Entries


      Indicate the status of the implementation of Federal Desktop
      Core Configuration (FDCC) at your Agency:
                                              Agency has
7b.                                           documented
      7b(1).                                  deviations from FDCC   Yes
                                              standard
                                              configuration.


                                      B-8
                                                     New Federal                 No; however, the
                                                     Acquisition Regulation      Office of Acquisition
                                                     2008-004 language,          and Grants and the
                                                     which modified "Part        Office of
                                                     39—Acquisition of           Telecommunications
            7b(2).                                   Information                 and Systems
                                                     Technology", is             Operations are
                                                     included in all             collaborating to get the
                                                     contracts related to        correct common
                                                     common security             configuration language
                                                     settings.                   into the contracts.

                                  Question 8: Incident Reporting


            How often does the Agency comply with documented policies
   8a.                                                                             90 - 100%
            and procedures for identifying and reporting incidents internally?

            How often does the Agency comply with documented policies
   8b.                                                                              35%
            and procedures for timely reporting of incidents to US-CERT?

            How often does the Agency comply with documented policy and
   8c.                                                                             90% - 100%
            procedures for reporting to law enforcement?

                            Question 9: Security Awareness Training

Provide an assessment of whether the Agency has provided IT security awareness training to all
users with log-in privileges, including contractors. Also provide an assessment of whether the
Agency has provided appropriate training to employees with significant IT security responsibilities.
            Has the Agency developed and documented an adequate
            policy for identifying all general users, contractors, and
   9a.      system owners/employees who have log-in privileges,           Yes
            and providing them with suitable IT security awareness
            training?
            Report the following for your Agency:
            9b(1). Total number of people with log-in privileges to
                                                                          87,140
            Agency systems.
                                                                          74,307 – For the
            9b(2). Number of people with log-in privileges to Agency      individuals reviewed, the
            systems that received information security awareness          Agency was unable to
            training during the past fiscal year, as described in NIST    provide documentation to
   9b.      Special Publication 800-50, "Building an Information          show that all individuals
            Technology Security Awareness and Training Program”.          received security
                                                                          awareness training.
            9b(3). Total number of employees with significant
                                                                          325
            information security responsibilities.
            9b(4). Number of employees with significant security          325 – For the individuals
            responsibilities that received specialized training, as       reviewed, the Agency was
            described in NIST Special Publication 800-16,                 unable to provide


                                              B-9
      “Information Technology Security Training Requirements:        documentation to show
      A Role- and Performance-Based Model”.                          that all individuals received
                                                                     specialized security
                                                                     training.
                       Question 10: Peer-to-Peer File Sharing
      Does the Agency explain policies regarding the use of
10.   peer-to-peer file sharing in IT security awareness training,   Yes
      ethics training, or any other Agency-wide training?




                                       B-10
                                                                                           Appendix C

Background and Current Security Status
The Federal Information Security Management Act of 2002 (FISMA) requires that
agencies create protective environments for their information systems. It does so by
creating a framework for annual information technology (IT) security reviews,
vulnerability reporting, and remediation planning, implementation, evaluation, and
documentation. 1 In Fiscal Year (FY) 2005, the Social Security Administration (SSA)
resolved the long-standing internal controls reportable condition concerning its
protection of information. 2 However, during the FY 2009 financial statement audit,
SSA’s management of access to its systems was identified as a significant deficiency. 3
SSA continues to work with us and PricewaterhouseCoopers LLP to further improve the
security and the protection of information and information systems and resolve other
issues observed during prior FISMA reviews.

The Office of Management and Budget (OMB) continues to stress the importance of
protecting the public’s privacy and personally identifiable information (PII). For
example, OMB Memorandum M-07-16, Safeguarding Against and Responding to the
Breach of Personally Identifiable Information, mandates agencies to increase efforts to
reduce the use of PII collected and held. OMB Memorandum M-09-29, FY 2009
Reporting Instructions for the Federal Information Security Management Act and
Agency Privacy Management, required that agencies provide a

•     breach notification policy, if it has changed significantly since last year’s report;
•     progress update on eliminating unnecessary use of Social Security numbers; and
•     progress update on review and reduction of holdings of PII.



1
    Pub. L. 107-347, Title III, Section 301, 44 U.S.C. § 3544(a)(1), (a)(2), and (b)(1).
2
    SSA’s FY 2005 Performance and Accountability Report, page 164.
3
  Government Accountability Office, Government Auditing Standards, section 5.11: A significant
deficiency with regard to financial audits is defined as a deficiency in internal control, or combination of
deficiencies, that adversely affects the entity’s ability to initiate, authorize, record, process, or report
financial data reliably in accordance with Generally Accepted Accounting Principles such that there is
more than a remote likelihood that a misstatement of the entity’s financial statements that is more than
inconsequential will not be prevented or detected. OMB FY 2009 Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management, August 20, 2009, page 9 states
a significant deficiency as a weakness in an agency’s overall information systems security program or
management control structure, or within one or more information systems that significantly restricts the
capability of the agency to carry out its mission or compromises the security of its information, information
systems, personnel, or other resources, operations, or assets. In this context, the risk is great enough that
the agency head and outside agencies must be notified and immediate or near immediate corrective
action must be taken.

                                                        C-1
This report informs Congress and the public about SSA’s security performance and
fulfills OMB's requirement under FISMA to submit an annual report to Congress. It
provides OMB an assessment of SSA’s IT security strengths and weaknesses and a
plan of action to improve performance. OMB requires that agencies use an automated
tool, CyberScope, to submit the annual FISMA report.




                                        C-2
                                                                                         Appendix D

Scope and Methodology
The Federal Information Security Management Act of 2002 (FISMA) directs each
agency’s Office of Inspector General (OIG) to perform, or have an independent external
auditor perform an annual independent evaluation of the agency’s information security
program and practices as well as a review of an appropriate subset of agency systems.1
We contracted with PricewaterhouseCoopers LLP (PwC) to assist with the Social
Security Administration’s (SSA) Fiscal Year (FY) 2009 financial statement audit.
Because of the extensive internal control system work that is completed as part of that
audit, our FISMA review requirements were incorporated into the PwC financial
statement audit contract. This evaluation included Federal Information System Controls
Audit Manual (FISCAM) level reviews of SSA’s mission critical sensitive systems. PwC
performed an “agreed-upon procedures” engagement using FISMA, Office of
Management and Budget (OMB) Memorandum M-09-29, FY 2009 Reporting
Instructions for the Federal Information Security Management Act and Agency Privacy
Management, National Institute of Standards and Technology guidance, FISCAM, and
other relevant security laws and regulations as a framework to complete the OIG-
required review of SSA’s information security program and practices and its sensitive
systems. We also considered the security implications of OMB Memorandum M-07-16.

The results of our FISMA evaluation are based on our FY 2009 financial statement audit
and working papers related to its agreed-upon procedures engagement as well as
various audits and evaluations performed by this office. We also reviewed the final draft
of the Chief Information Officer and Senior Agency Official for Privacy 2009 Annual
FISMA Report.

Our major focus was an evaluation of SSA’s plan of action and milestones (POA&M)
process, configuration management, incident management, privacy, certifications and
accreditations (C&A), security awareness and training, and systems inventory
processes. Our evaluation of SSA’s POA&Ms included an analysis of the C&A Web
solution used by the Agency and its related policies. We also reviewed SSA’s updated
systems inventory and the policy for the update processes.

We performed field work at SSA facilities nationwide from March to October 2009. We
considered the results of other OIG audits performed in FY 2009. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.




1
    Pub. L. No. 107-347, Title III, section 301, 44 U.S.C § 3545 (a)(1), (a)(2), and (b)(1).
                                                                         Appendix E

The Social Security Administration’s Certified and
Accredited Systems
#                            System                                      Acronym
                 General Support Systems
1   Audit Trail System                                        ATS
2   Web Comprehensive Integrity Review Process                CIRP

3   Death Alert, Control and Update System                    DACUS

4   Debt Management System                                    DMS
5   Quality System                                            Quality System

6   Integrated Disability Management System                   IDMS

7   Enterprise Wide Mainframe & Distributed Network           EWANS
    Telecommunications Services System
8   FALCON Data Entry System                                  FALCON

9   Human Resources Management Information System             HRMIS

10 Integrated Client Database System                          ICDB

11 Security Management Access Control System                  SMACS
12 Recovery of Overpayments, Accounting, and Reporting        ROAR
   System
13 Social Security Online Accounting & Reporting System       SSOARS
14 Security Unified Measurement System                        SUMS


                      Major Applications
1   Electronic Disability System                              eDib
2   Earnings Record Maintenance System                        ERMS
3   Retirement, Survivors & Disability Insurance Accounting   RSDI – Accounting
    System
4   Social Security Number Establishment and Correction       SSNECS
    System
5   Supplemental Security Income Record Maintenance System    SSIRMS

6   Title II System                                           Title II
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Brian Karpe, Director, Information Technology Audit Division

   Phil Rogofsky, Audit Manager, Information Technology Audit Division

Acknowledgments

In addition to the persons named above:

   Al Darago, Lead Auditor

   Grace Chi, Auditor-in-Charge

   Tina Nevels, Auditor

   Michael Zimmerman, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-14-09-19047.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform, House of
Representatives
Chairman and Ranking Minority Member, Committee on Science, House of
Representatives
Chairman and Ranking Minority Member, Committee on Governmental Affairs, U.S.
Senate
Chairman and Ranking Minority Member, Committee on Commerce, Science and
Transportation, U.S. Senate
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
